U.S. Department of Justice
Executive Office for Immigration Review
United States Immigration Court

In the Matter of

VIJAYAKUMAR THURASSIGIAM
RESPONDENT

File:

)
)IN CREDIBLE FEAR REVIEW PROCEEDINGS
)
)
Transcript of Hearing

Before HENRY IPEMA, Immigration Judge

Date: March 17, 2017

Transcribed by DEPOSITION SERVICES, lnc.-2

Official Interpreter: 6161573

Language: TAMIL

Appearances:
For the RESPONDENT: PRO SE
For the DHS : ROBERT WITIES

Place: OTAY MESA, CALIFORNIA

U.S. Department of Justice
Executive Office for Immigration Review
United States Immigration Court

File:

In the Matter of

VIJAYAKUMAR THURASSIGIAM
RESPONDENT

)
)IN CREDIBLE FEAR REVIEW PROCEEDINGS
)
)
Transcript of Hearing

Before HENRY IPEMA, Immigration Judge

Date: March 17, 2017

Transcribed by DEPOSITION SERVICES, lnc.-2

Official Interpreter: 6161573

Language: TAMIL

Appearances:
For the RESPONDENT: PRO SE
For the OHS: ROBERT WITIES

Place: OTAY MESA, CALIFORNIA

1
2

JUDGE FOR THE RECORD
Our official interpreter in the Tamil language is appearing through the

3

SOSi interpretation services, and her code for today is 6161573.

4

JUDGE TO INTERPRETER

5

To our interpreter, do you swear or affirm to translate and interpret

6

accurately and correctly from the English to the Tamil, Tamil to the English, to the best

7

of your ability?

8

INTERPRETER TO JUDGE

9
10
11
12
13

Yes, I do, Your Honor.
JUDGE TO INTERPRETER
Thank you.
JUDGE TO MR. THURASSIGIAM
And then through our interpreter to the respondent, sir, good morning.

14

What language do you speak and understand the best?

15

MR. THURASSIGIAM TO JUDGE

16

Tamil.

17

JUDGE TO MR. THURASSIGIAM

18
19
20
21
22
23
24
25

And can you hear the interpreter clearly through the headphones?
MR. THURASSIGIAM TO JUDGE
Yes, Your Honor.
JUDGE TO MR. THURASSIGIAM
And is she speaking your language?
MR. THURASSIGIAM TO JUDGE
Yes, Your Honor.
JUDGE TO MR. THURASSIGIAM

1

March 17, 2017

1
2

All right.
JUDGE FOR THE RECORD
This is Immigration Judge Henry lpema, I-P-E-M-A. I am presiding over

3
4

the detained docket of the Otay Mesa , California, Immigration Court. Today's date is

5

March 17, 2017. This next case is a credible fear review in file

6

respondent's name is Vijayakumar Thurassigiam. And I'm going to spell it for the

7

record. V-I-J-A-Y-A-K-U-M-A-R, and last name, T-H-U-R-A-I-S-S-I-G-I-A-M [sic]. The

8

respondent is present, and he does not appear to be accompanied by any individual.

9

The Government has sent an observer to the proceedings.

10

JUDGE TO MR. WITIES

11
12

And , counsel, if you want to state your name for the record?
MR. WITIES TO JUDGE

13

I'm senior attorney Robert Wities.

14

JUDGE TO MR. WITIES

15

Thank you.

16

. The

JUDGE TO MR. THURASSIGIAM

17

And to the respondent, sir, would you please stand and raise your right

18

hand? Sir, do you swear or affirm to tell the whole truth and nothing but the truth?

19

MR. THURASSIGIAM TO JUDGE

20

I do speak only truth.

21

JUDGE TO MR. THURASSIGIAM

22

Thank you. Please be seated . And state your full and true name for the

23

record .

24

MR. THURASSIGIAM TO JUDGE

25

Thurassigiam, Vijayakumar.

2

March 17, 2017

1
2

JUDGE FOR THE RECORD
We note for the record that the respondent is being provided a closed

3

hearing. There are no other applicants in the courtroom , only those directly associated

4

with the respondent's hearing , the Court, the Government observer, the interpreter, and

5

an officer, and of course the respondent.

6

JUDGE TO MR. THURASSIGIAM

7

So to the respondent, the Immigration Officer has found that you are

8

removable from the United States. The Asylum Officer has determined that you do not

9

have a credible fear of persecution or torture . You asked for an Immigration Judge to

10

review the Asylum Officer's determination.

11

MR. THURASSIGIAM TO JUDGE

12
13
14

Yes, Your Honor.
JUDGE TO MR. THURASSIGIAM
And we are about to conduct that review. But please understand that the

15

Court has no authority in your case beyond this review . Now, sir, there is no one else in

16

the courtroom, but did you have anyone , such as an attorney or a family member or a

17

friend , with you here today?

18

MR. THURASSIGIAM TO JUDGE

19
20

No, Your Honor.
JUDGE TO MR. THURASSIGIAM

21

The regulations allow for a respondent to consult with an attorney or other

22

person prior to this review. However, for this review , the regulations provide no role for

23

an attorney or other person, nor for a continuance for an attorney or attorney

24

preparation. The regulations do, however, require that this review be conducted

25

expeditiously following the interview. Therefore, let me ask you, sir, do you remember

3

March 17, 2017

1

being interviewed by an Asylum Officer?

2

MR. THURASSIGIAM TO JUDGE

3
4
5

Yes, I do.
JUDGE TO MR. THURASSIGIAM
Do you agree that, for purposes of the interview, you were placed under

6

oath to tell the truth?

7

MR. THURASSIGIAM TO JUDGE

8
9
10
11
12
13
14

Yes , Your Honor. Yes, I do, Your Honor.
JUDGE TO MR. THURASSIGIAM
And did you tell the truth to the officer?
MR. THURASSIGIAM TO JUDGE
Yes, Your Honor.
JUDGE TO MR. THURASSIGIAM
Sir, I have reviewed the paperwork from the credible fear interview. And

15

I'm going to read to you now the officer's summary. So just listen closely as it is

16

translated for you. It says you indicated that you are fearful of returning to Sri Lanka

17

because you believe you will be beaten up and that you do not feel safe there.

18

INTERPRETER TO JUDGE

19
20
21

The interpreter -JUDGE TO MR. THURASSIGIAM
And that you do not feel safe there. You testified that you were taken by

22

men and beaten, and awoke one day --

23

MR. THURASSIGIAM TO JUDGE

24
25

(Untranslated.)
JUDGE TO MR. THURASSIGIAM

4

March 17, 2017

1

Sir, just listen. And awoke one day later in the hospital. You do not know

2

who these individuals are or why they beat you. You testified that you were working on

3

your farm when these men came in a van , blindfolded you, and took you away and beat

4

you . You do not know if the police or other government entities are willing or able to

5

protect you because you did not report this incident to the authorities. Although you do

6

not know who beat you or why you were beaten , you are fearful of returning to Sri

7

Lanka. So, sir, is that a fair summary of what you told the officer?

8

MR. THURASSIGIAM TO JUDGE

9
10
11

Yes, Your Honor. It's truth.
JUDGE TO MR. THURASSIGIAM
Okay. Is there anything that you would like to say for purposes of this

12

review here today?

13

MR. THURASSIGIAM TO JUDGE

14
15

Yes. We would like to continue the review, sir.
JUDGE TO MR. THURASSIGIAM

16

All right, sir. Well, I have read the officer's report, and I am required to

17

review the interview that took place before the officer. It appears that you agree with

18

the summary of the information, but I wanted to know if there was anything that you

19

would like to tell me for purposes of the review.

20

MR. THURASSIGIAM TO JUDGE

21
22
23
24
25

Yes .
JUDGE TO MR. THURASSIGIAM
Go ahead, sir.
MR. THURASSIGIAM TO JUDGE
If I go back to Sri Lanka, they will beat me and they would kill me . They

5

March 17, 2017

1

were, they were threatening me, they were beating me , and they, they told me that they

2

would kill me . That's what they did to me . And I don't want to go to Sri Lanka.

3

JUDGE TO MR. THURASSIGIAM

4

Sir, the officer found you to be a credible applicant. So the officer found

5

that when you related your story, you did so in a truthful manner. And when I review the

6

interview, there is no reason to reach a different conclusion.

7

INTERPRETER TO JUDGE

8
9
10

Interpreter needs repetition, Your Honor.
JUDGE TO MR. THURASSIGIAM
There is no reason to reach a different conclusion . So in other words, you

11

were found to be a credible witness. There's no reason to doubt your fear of return for

12

the reasons you stated , or that you were beaten on this occasion. Being truthful ,

13

however, does not necessarily result in a positive determination in your case. In your

14

case, the officer very specifically analyzed the information and found no testimony that

15

you were or would be harmed on account of race, religion, nationality, membership in a

16

particular social group, or political opinion . This does seem to follow the information

17

that you did not know who these individuals were or why they were doing this to you .

18

Also , with respect to the issue of torture, the officer, in part, noted that this does not

19

appear to have been on the instigation of or by a public official or other person acting in

20

an official capacity. The officer noted that you had not reported the incident to the

21

police, so there was no basis to conclude that the police or authorities would acquiesce

22

to any harm against you. And these are issues that relate directly to the officer's ability

23

to find a positive credible fear in your case. As it did not appear that the information you

24

gave offered any showing of past or future harm on account of one of the five grounds

25

noted , and also, in part, because it did not appear that the authorities of your country

6

March 17, 2017

1

were in any way behind or would permit the harm against you were you to return, the

2

officer had to reach the conclusion that you did not show a reasonable fear of

3

persecution or torture. But if there was something more that you wanted to say about

4

that reasoning , please do so, sir.

5

MR. THURASSIGIAM TO JUDGE

6

If they take me, they would, they, they can do whatever they want, but

7

nobody would be able to find out. So please, I don't want to go back.

8

JUDGE TO MR. THURASSIGIAM

9

But, sir, about the specific reasoning that the officer included in the report

10

and which I just summarized for you , did you have anything in particular to say about

11

that reasoning?

12

MR. THURASSIGIAM TO JUDGE

13
14
15

In, in which one?
JUDGE TO MR. THURASSIGIAM
Sir, I explained to you the officer's reasoning. Was there anything further

16

that you wanted to say about that?

17

MR. THURASSIGIAM TO JUDGE

18

They, they were telling me that they would shoot me and they would kill

19

me. That's what they kept on repeating , and they, they were beating me. They were

20

like in a -- they took almost five hours to threaten me and beat me. I found out only

21

about that when I opened my eyes in the hospital.

22

JUDGE TO MR. THURASSIGIAM

23

You had indicated to the officer that you did not know who these

24

individuals were or why they were doing this to you. Is that true?

25

MR. THURASSIGIAM TO JUDGE

7

March 17, 2017

1

Yes, sir.

2

JUDGE TO MR. THURASSIGIAM

3
4
5
6
7

And you never reported to the police, correct?
MR. THURASSIGIAM TO JUDGE
Yes, Your Honor. I did not.
JUDGE TO MR. THURASSIGIAM
Again, sir, I have no reason to doubt your subjective fear of return. But

8

upon de novo review of the Asylum Officer's determination, I must find as follows . First,

9

the Asylum Officer appears to have done a diligent job of attempting to obtain and

10

record the relevant information. Second, the officer reached the proper conclusion in

11

the context of controlling law for the reasons articulated. In other words, anyone could

12

understand how difficult a situation this must have been for you and how you can still

13

have fear. But considering all the circumstances, it does not qualify for a reasonable

14

fear of persecution as defined under the law or of torture as defined under the law. So

15

the decision of the Asylum Officer, finding no credible fear of persecution or torture,

16

must be affirmed. And the record is returned to the Department of Homeland Security.

17

Now, sir, you are being served with a copy of the decision. Regulations provide no

18

appeal of the decision. However, you may request the Department of Homeland

19

Security to reconsider its determination, and you are also encouraged to talk to the

20

Department of Homeland Security about any other options that may be available to you

21

in the discretion of the Department of Homeland Security, including humanitarian parole

22

or deferred action of any removal order or any collateral visa. But as I indicated to you

23

before, I do not have authority over that, only authority over the review. And it does

24

appear that the officer reached the correct conclusion based on the information

25

provided. Thank you to the respondent.

8

March 17, 2017

1
2
3
4
5
6
7
8
9
10

JUDGE TO INTERPRETER
To our interpreter.
JUDGE TO MR. WITIES
To Government Counsel present.
JUDGE TO OFFICER
And also to our officer.
MR. THURASSIGIAM TO JUDGE
I, I don't want Sri Lanka. I don't want Sri Lanka.
JUDGE TO MR. THURASSIGIAM
Yes, I understand, sir. You were provided with the opportunity to express

11

your concerns of return to Sri Lanka . It does appear that subjectively you have a fear.

12

But under the law, it does not qualify for further proceedings. Thank you, sir.

13

HEARING CLOSED

14
15
16
17
18

19
20
21
22

23
24

25

9

March 17, 2017

CERTIFICATE PAGE
I hereby certify that the attached proceeding before JUDGE HENRY IPEMA, in
the matter of:
VIJAYAKUMAR THURASSIGIAM

OTAY MESA, CALIFORNIA
was held as herein appears, and that this is the original transcript thereof for the file of
the Executive Office for Immigration Review.

DARRYL FABIA
DEPOSITION SERVICES, lnc.-2
MARCH 28, 2018
(Completion Date)

